Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Justice Programs Grant to the 
Georgia Bureau of Investigation's National Criminal History Improvement Program

GR-40-02-009
 
September 2002

Office of the Inspector General

EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grant numbers 95-RU-RX-K004 and 2000-RH-CX-K023, awarded by the U.S. Department of Justice, Office of Justice Programs (OJP) to the Georgia Bureau of Investigation (grantee).  The purpose of these grants was to reimburse agencies for the purchase of Live Scan Devices used to participate in the National Criminal History Improvement Program. Between September 30, 1996, and May 7, 2002, the grantee was awarded a total of $6,626,275. 1
We tested accounting records to determine if reimbursement claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.

Expend funds within a timely manner after they were drawn down, resulting in $81,736 in lost interest earnings.
Submit timely and accurate Financial Status Reports to OJP.

These items are discussed in detail in the Findings and Recommendations section of the report.  The deficiencies listed did not result in any questioned costs or recommended funds to better use, but we identified $81,736 in enhanced revenues.  Our audit objectives, scope and methodology appear in Appendix I.


Footnote

See Appendix II for a schedule of dollar-related findings.